NATIONAL INSTITUTE
OF STANDARDS
AND TECHNOLOGY
Manufacturing Extension
Partnership Incurred
Avoidable Conference
Costs
FINAL REPORT NO. OIG-14-013-A
FEBRUARY 21, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
February 21, 2014

MEMORANDUM FOR:                  Phillip Singerman
                                 Acting Director
                                 National Institute of Standards and Technology
                                  Manufacturing Extension Partnership



FROM:                            Andrew Katsaros
                                 Assistant Inspector General for Audit

SUBJECT:                         Manufacturing Extension Partnership Incurred Avoidable
                                 Conference Costs
                                 Final Report No. OIG-14-013-A

Attached is our final report on our audit of National Institute of Standards and Technology (NIST)
Manufacturing Extension Partnership (MEP) conference spending. Our objectives were to develop
a reasonable cost estimate of the 2012 NIST-MEP annual conference held in Orlando and
determine the legitimacy and reasonableness of travel costs for major conferences in fiscal years
2011 and 2012. We concluded that:

          An estimated $1.1 million in federal dollars was spent at the 2012 Orlando conference.
          The NIST-MEP event planner retained concessions and benefits for the May 2012
           conference that could have been used to reduce the government’s conference cost.
          The NIST-MEP event planner raised funds to pay for an evening reception by selling
           sponsorships in exchange for conference attendee lists and logo branding opportunities on
           conference materials; none of the sponsorship fees were used to reduce the cost of the
           conference to the federal government.
          The NIST-MEP event planner retained and/or spent $236,341 in sponsorship fees,
           commissions, concessions, and excess registration fees instead of returning these funds and
           benefits to the government.
          NIST-MEP management agreed to room rates for government attendees that exceeded
           allowable maximum conference lodging rates in order to standardize rates for government
           and nongovernment attendees.
          NIST-MEP did not sufficiently process travel claims to guard against waste.




       	
	




The final report will be posted on OIG’s website pursuant to section 8L of the Inspector General
Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your action
plan within 60 days of the date of this memorandum. We appreciate the assistance and courtesies
extended to us by the Department and NIST-MEP. If you have any questions about this report,
please contact me at (202) 482-7859 or Ken Stagner, Denver Regional Inspector General for
Audits, at (303) 312-7650.

Attachment




                                                2
                                                    Report In Brief                                          F E B R U AR Y 2 1 , 2 0 1 4



Background                                  NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
The NIST Manufacturing Extension
Partnership (MEP) program is a net-
                                            Manufacturing Extension Partnership Incurred Avoidable Conference Costs
work of technical experts and business      OIG-14-013-A
advisers who work with small and mid-
sized U.S. manufacturers, helping these     WHAT WE FOUND
businesses identify growth opportuni-
ties. NIST-MEP, which funds approxi-        Federal conference costs are estimated at $1.1 million. This included the total amount spent by NIST-
mately 60 MEP centers across the            MEP, an estimate of other agencies’ costs, and estimated federal cost share amounts for attending
United States, focuses on five critical     representatives of MEP Centers. Upon receipt of all final invoices and billings related to the
areas: technology acceleration; supplier    conference, we calculated the NIST-MEP share of this amount to be almost $710,000.
development; sustainability; workforce;
                                            MEP Center attendees were not required to attend conferences. We determined that 51 of 56 MEP
and continuous improvement of manu-
                                            Center leaders do not think their Centers are required to participate in the annual conferences.
facturing processes, products, and
services.                                   Hotel costs included unnecessary concessions in the contract. The event planner retained hotel
Since 2006, NIST MEP has hosted an          concessions and benefits (e.g., golf greens fees, free rooms, travel points) for the May 2012
annual conference in Orlando to help        conference that could have been used to reduce the government’s conference cost.
MEP Centers learn about the latest
                                            The conference included evening receptions at no cost to participants. Included was food, alcohol, and
tools, services, best practices, and
                                            live musical entertainment. Funds were raised to pay for the reception through the sale of
strategies to advance the innovation
                                            sponsorships by the conference planner; none of the sponsorship fees were used to reduce the
and competitiveness of their clients. In
                                            cost of the conference to the federal government.
addition, the annual conference is in-
tended to provide attendees the op-         The conference planner retained funds from the 2012 conference that properly belong to the NIST-MEP
portunity to connect directly with          program. More than $230,000 in sponsorship fees were retained and/or spent instead of returned
manufacturers.                              to the government.
Why We Did This Review                      NIST-MEP subsidized lodging expenses for private sector attendees. To promote attendance, NIST-MEP
Over the past few years, reports have       management agreed to room rates for government attendees far exceeding maximum conference
surfaced regarding excessive federal        lodging rates, to standardize rates for government and nongovernment attendees. NIST then
government conference spending, with        reimbursed its attendees for the excessive rates, an expense NIST-MEP could have avoided.
related activities and expenses that are
                                            NIST-MEP did not sufficiently process travel claims to guard against waste. It provided some
considered wasteful. Members of Con-
                                            reimbursements to attendees for travel costs that were not properly incurred. It also reimbursed
gress from California, Florida, and
Maine raised concerns following an          some attendees for unallowable items on travel vouchers.
allegation in the press that $3–5 million
                                            WHAT WE RECOMMEND
in federal funds were spent at the May
2012 Manufacturing Innovation Event         We recommend that the Director, NIST-MEP, implement controls to ensure that:
at the Marriott World Center Resort
                                            1. Contractors comply with Federal Travel Regulation (FTR) cost restrictions when choosing a conference
in Orlando. There was also concern
                                               location; NIST-MEP monitors contractor performance thoroughly; and NIST-MEP documents contractor
that NIST-MEP requires individual MEP
                                               compliance with the contract terms and conditions and applicable government regulations, including the
Centers to participate in the annual
conference as part of the cooperative          FTR.
agreement terms and conditions, with-       2. Funds collected from the sales of sponsorships are not used to pay for alcohol and live entertainment
out offering Center attendees the dis-         but rather to reduce the costs of the conference to the government.
cretion to refuse attending.                3. NIST-MEP does not accept upgraded suites or any other valuable items related to government travel
This audit responds to U.S. Senator            from government contractors.
Susan Collins’ July 20, 2012, request to
                                            We further recommend that the director, NIST-MEP:
review allegations about the NIST-MEP
conference spending over the last 2         4. Make a determination on the recovery of $148,000 that IMC collected for sponsorship fees and
years, particularly the amount spent on        $88,341 that IMC retained for both registration fees and a concession refund.
the May 2012 Orlando conference.            5. Evaluate and determine whether administrative disciplinary action is appropriate if NIST management
Our audit's objectives were to (a) de-         made decisions to subsidize private attendee room rates by increasing government attendees room
velop a reasonable cost estimate for           rates in violation of the FTR maximum allowable rates.
the 2012 NIST-MEP annual conference
held in Orlando and (b) determine the       6. Evaluate and determine whether administrative disciplinary action is appropriate for attendees who
legitimacy and reasonableness of travel        claimed and reviewing officials who approved expenses that were not incurred for the 2011 or 2012
costs for major NIST-MEP conferences           conferences or who misused government travel card privileges. The bureau should pursue
in fiscal years (FYs) 2011 and 2012.           reimbursement of overpayments and correctly reimburse underpaid attendees, wherever
                                               possible.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                OFFICE OF INSPECTOR GENERAL


Contents
Introduction .......................................................................................................................................................1 
Findings and Recommendations ....................................................................................................................3 
   I.         Federal Conference Costs Are Estimated at $1.1 Million ......................................................... 3 
   II.        MEP Center Attendees Were Not Required to Attend Conferences ...................................4 
   III.       Hotel Costs Included Unnecessary Concessions in Marriott Contract with IMC ..............4 
   IV.  Conference Included Evening Receptions at No Cost to Participants ...................................5 
          A.  Reception Included Free Food, Alcohol, and Live Entertainment ........................................5 
          B.  Reception Was Paid For Using Sponsorship Fees that Included Government Funds......6 
   V.         IMC Retained Funds from the 2012 Conference that Properly Belong to the
              NIST-MEP Program ............................................................................................................................7 
          A.  Commissions and Concessions Paid by Marriott to IMC.......................................................7 
          B.  Excess Registration Fees Collected by IMC .............................................................................. 7 
   VI.  NIST-MEP Subsidized Lodging Expenses for Private Sector Attendees .................................8 
   VII.  NIST-MEP Did Not Sufficiently Process Travel Claims to Guard Against Waste ...............8 
          A.  NIST Reimbursed Travel Costs That Were Not Incurred During the 2011
              and 2012 Annual and Update Conferences ............................................................................... 8 
          B.  NIST Attendees Charged Unallowable Travel Costs to Government-Issued
              Travel Cards .................................................................................................................................. 10 
          C.  Hotel Tax Exemptions Were Not Used ................................................................................. 10 
   Recommendations......................................................................................................................................... 11 
Summary of Agency Response and OIG Comments ........................................................................... 12 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 13 
Appendix B: Potential Monetary Benefits ................................................................................................ 15 
Appendix C: Agency Response................................................................................................................... 16 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters, 
                                                                                                                   by sculptor James Earle Fraser, 1934 




FINAL REPORT NO. OIG-14-013-A
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Introduction
Since 2006, the National Institute of Standards and Technology (NIST) Manufacturing Extension
Partnership (MEP) has hosted an annual conference in Orlando for individual MEP Centers’ field
staff, private-sector manufacturers, and industry experts. The MEP program is a nationwide
network of technical experts and business advisers who work with small and mid-sized U.S.
manufacturers, helping these businesses identify growth opportunities. NIST-MEP, which funds
approximately 60 MEP Centers across the United States, focuses its resources on five critical
areas: technology acceleration; supplier development; sustainability; workforce; and continuous
improvement of manufacturing processes, products, and services.

The purpose of the annual conference is to provide an opportunity for MEP Centers to learn
about the latest tools, services, best practices, and strategies to advance the innovation and
competitiveness of their clients. In addition, the annual conference is intended to provide MEP
Center attendees the opportunity to connect directly with manufacturers and make business
connections to help grow their companies.

Over the past few years, reports have surfaced regarding excessive federal government
conference spending, with related activities and expenses that are considered wasteful. NIST-
MEP has a responsibility to act as a careful steward of federal funds to ensure that conference
spending is appropriately controlled, effective, and efficient, and to ensure that proper controls
are in place to mitigate the risk of inappropriate conference spending.

Members of Congress from California, Florida, and Maine raised concerns following an
allegation in the press that $3–5 million in NIST-MEP federal funds were spent at the May 2012
Manufacturing Innovation Event at the Marriott World Center Resort in Orlando. It was
reported that the conference included a reception with seafood buffet, alcohol, and live music.
There was also concern that NIST-MEP requires individual MEP Centers to participate in the
annual conference as part of the cooperative agreement terms and conditions, without offering
Center attendees the discretion to refuse attending.

This audit responds to U.S. Senator Susan Collins’ July 20, 2012, request to review allegations
about the NIST-MEP conference spending over the last 2 years, particularly the amount spent
on the May 2012 Orlando conference. NIST-MEP had originally stated that the total amount of
MEP federal funds spent for its May 2012 Manufacturing Innovation Event was $670,845, adding
that these funds were used to cover expenses for “travel, event programming, hotel conference
rooms, and event infrastructure.”

Our audit's objectives were to:

       Develop a reasonable cost estimate for the 2012 NIST-MEP annual conference held in
        Orlando

       Determine the legitimacy and reasonableness of travel costs for major NIST-MEP
        conferences in FYs 2011 and 2012



FINAL REPORT NO. OIG-14-013-A                                                                        1
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

After review, we estimate $1,108,943 in federal dollars was spent at the 2012 Orlando
conference. This includes the total amount spent by NIST-MEP, an estimate of the costs of
other federal agencies, and an estimate of the federal cost share amounts for representatives of
the individual MEP Centers to attend. Upon receipt of all final invoices and billings related to
the conference, we calculated the NIST-MEP share of this amount to be $708,970. We further
determined that 51 of 56 MEP Center leaders do not think their Centers are required to
participate in the annual conferences.

Regarding overall federal spending at MEP conferences in FYs 2011–2012, we found that NIST-
MEP lacked adequate controls over much of its conference spending. We concluded that:
       International Management and Consulting LLC (IMC), the NIST-MEP event planner,
        retained Marriott concessions and benefits (golf greens fees, free rooms, travel points)
        for the May 2012 conference that could have been used to reduce the government’s
        conference cost.

       The May 2012 conference included evening receptions at no cost to the participants
        that included food, alcohol, and live musical entertainment. Funds were raised to pay for
        the reception through the sale of sponsorships by the conference planner that included
        benefits such as conference attendee lists and logo branding opportunities on
        conference materials. None of the sponsorship fees were used to reduce the cost of the
        conference to the federal government.

       IMC retained and/or spent $236,341 in sponsorship fees instead of returning these funds
        and benefits to the government.

       To increase conference attendance, NIST-MEP management agreed to room rates for
        government attendees that far exceeded allowable maximum conference lodging rates in
        order to standardize rates for government and nongovernment attendees. As a result,
        NIST-MEP subsidized the lodging costs to nongovernment attendees. NIST then
        reimbursed NIST attendees for the excessive lodging rates, an expense NIST-MEP could
        have avoided.

       NIST-MEP did not sufficiently process travel claims to guard against waste. It provided
        some reimbursements to attendees for travel costs that were not properly incurred. It
        also reimbursed some attendees for unallowable items on travel vouchers.

For this audit, we reviewed federal regulations and Departmental policies and procedures on
conference spending, examined supporting travel documentation of NIST attendees, and
conducted follow-up discussions with NIST attendees and officials. From the NIST-MEP and
MEP Center attendees’ travel cost information we received, we extrapolated those costs to
other federal attendees and private sector attendees to estimate total travel costs for the
Orlando conferences. We also collected cost information from the meeting and events
contractor NIST hired to coordinate the Orlando conferences. See appendix A for a more
detailed statement of objectives, scope, and methodology.




FINAL REPORT NO. OIG-14-013-A                                                                      2
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
  I.     Federal Conference Costs Are Estimated at $1.1 Million
   Table 1 shows the distribution of estimated 2012 conference costs for NIST-MEP attendees,
   individual state MEP Center attendees, other federal attendees, and private sector attendees.

        Table 1. NIST-MEP 2012 Annual Conference Costs, by Attendee Group
                      Number
                                                                                   Federal           Federal
 Attendees               of            Cost Category                Cost
                                                                                     %               Amount
                     Attendees
                                       Preconference
                                0                                    $29,404        100                $29,404
                                       costsa
                                       Payment to
 NIST-MEP
                                       conference                   579,545b        100                579,545
 attendees
                            48         coordinator
                                       Travel costs                   84,875        100                  84,875
                                       Other costs                    15,146        100                  15,146
 NIST-MEP
                                                                   $708,970                           $708,970
 Subtotal
 MEP Center                            Travel costs                 523,482c          33.33           174,477d
                          359
 attendees                             Registration fees           344,419c           33.33           114,795d
 Subtotal                                                          $867,901                           $289,272
                                       Travel costs                 63,656e         100                 63,656
 Other federal                         Registration fees                9,045       100                   9,045
                            36
 attendees                             Federal
                                                                      38,000        100                  38,000
                                       sponsorship
 Subtotal                                                          $110,701                           $110,701
                                       Travel costs                557,021e            0                     0
                                       Private sector
 Private sector                                                      110,000           0                       0
                          382          sponsorships
 attendees
                                       Private sector
                                                                     144,045           0                       0
                                       registrations
 Subtotal                                                         $811,066                                   $0
          Total           825                                   $2,498,638                         $1,108,943
 Source: NIST-MEP, MEP Centers, and IMC
 a
   Preconference costs were long lead items (e.g., event signage, labor and equipment related to display construction)
 requiring purchase in advance of the conference.
 b
   The $579,545 paid to IMC was for the services it provided for organizing the conference and did not cover any
 nonfederal costs of the conference itself.
 c
   These amounts are self-reported estimates OIG received from MEP Centers.
 d
   These amounts are estimated costs based on a typical one-third federal cost sharing arrangement between NIST
 and MEP Centers.
 e
   Non-NIST and non-MEP Center travel costs are estimated based on MEP Center travel costs for the same
 conference.


FINAL REPORT NO. OIG-14-013-A                                                                                        3
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

   We estimated the total cost of the 2012 NIST-MEP annual conference to be $2.5 million.
   Responses on reported costs for this conference could vary, depending on whether
   respondents refer to all costs ($2.5 million), just the federal portion ($1.1 million), or only
   the NIST-MEP share ($708,970). NIST-MEP originally reported to Congress that the 2012
   Orlando conference cost $670,845. At that time, it had not received all final invoices and
   billings and therefore did not have information about the total cost. Consistent with Office
   of Management and Budget guidance, we did not include employee salaries for time spent
   attending conferences.

  II.   MEP Center Attendees Were Not Required to Attend Conferences

   MEP Centers are not required to participate in conferences held by NIST-MEP. We asked 56
   Centers whether attendance at the annual conferences was mandatory or optional. Out of
   56 Centers, 51 replied that attendance was optional, although some added that NIST-MEP
   highly encouraged attendance.

   The five Centers that thought the conferences were mandatory cited the 2012 Hollings MEP
   General Terms and Conditions, which states: “To facilitate a more rapid transfer of advanced
   manufacturing technology on a national scale and avoid duplication of effort, the Recipient
   shall cooperate with NIST and the other NIST Manufacturing Extension Partnership
   organizations by participating in coordinated joint program activities. Such activities include,
   but are not limited to the following: participation in national and regional meetings,
   communities of practice, and sharing of expertise, products and resources within the HMEP
   system.”

 III.   Hotel Costs Included Unnecessary Concessions in Marriott Contract with
        IMC

   IMC received a firm-fixed-price contract to organize the Orlando conference for NIST-MEP.
   To accomplish this, IMC contracted with the Marriott Orlando World Center Resort. The
   contract included numerous concessions from Marriott that were either retained by IMC or
   NIST-MEP. The Federal Travel Regulation (FTR) Section 301-74.1(d) requires agencies to
   ensure that the conference planner not retain for personal use any promotional benefits.
   Among the items retained by IMC were golf passes and travel award points.

   The negotiated concessions in the contract between IMC and Marriott included:
            One complimentary premium bar reception for 2 hours (maximum of $15,000)
            12 suites at $210 per night
            500,000 Marriott Reward points
            16 complimentary golf passes
            A 3 percent rebate, up to $50,000




FINAL REPORT NO. OIG-14-013-A                                                                        4
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

                     Guaranteed sleeping rooms at the prevailing federal, state, and local government per
                      diem rates (the contracted per diem rates were later amended in a contract
                      modification to reflect market rates and a 10 percent commission to IMC)
                     One free room night for every 45 sleeping rooms paid
                     10 $30 VIP complimentary amenities
                     10 rooms at $99 each night for use during the conference
     IMC stated that all benefits went to the conference except for the golf passes, which expired,
     and Marriott points.1 For both the 2011 and 2012 conferences, IMC used some of these
     concessions to upgrade the 12 hotel rooms of certain NIST-MEP managers—some of whom
     were involved in managing this and other IMC government contracts.

     The concessions provided by Marriott for this government-sponsored conference represent
     costs to the resort that may have resulted in higher room rates for attendees. Including such
     concessions in the contract also limits the transparency of reporting on conference spending
     because it is not always possible to accurately calculate how much each concession
     contributed to increased lodging costs. IMC, acting under contract as the government’s
     representative, should have instead negotiated a lower overall cost for the conference.

 IV.          Conference Included Evening Receptions at No Cost to Participants

     Although the vast majority of attendees are not government employees, NIST-MEP is
     responsible for organizing the event and setting the agenda. NIST-MEP selected a contractor,
     IMC, using a firm-fixed-price contract of $579,545 to organize the conference for NIST-MEP.
     The contractor, acting as NIST-MEP’s agent, was required to obtain NIST-MEP’s approval of
     the actions it took to organize the event through periodic status meetings. Therefore, even
     though the majority of the attendees are not government employees, the government’s
     conference rules and regulations—including those concerning food and alcohol,
     entertainment, and sponsorship fees—are applicable to NIST-MEP and its contractor IMC
     when organizing the Manufacturing Innovation Event conference.

       A. Reception Included Free Food, Alcohol, and Live Entertainment

              At no cost to the FY 2012 attendees, a $113,995 reception was held at the Orlando
              World Marriott Center Resort that included food, alcohol, and live music. Additionally,
              free evening transportation was provided to and from Walt Disney World. FTR Section
              301-74.1(a) on conference planning emphasizes cost reduction, stating conference
              planners “must minimize all conference costs.” Accordingly, agencies are required to
              ensure that appropriate policies and controls are in place to limit expenses related to
              food and beverages at conferences sponsored or hosted by the agency.



                                                            
1
 Because Marriott allows its rewards members to buy, gift, transfer, or donate points, the ultimate value to IMC
cannot be estimated.


FINAL REPORT NO. OIG-14-013-A                                                                                      5
  DEPARTMENT OF COMMERCE
U.S.                                                                      OFFICE OF INSPECTOR GENERAL

       B. Reception Was Paid For Using Sponsorship Fees that Included Government Funds

              To pay for the 2012 reception, IMC stated that it collected $148,000 from organizations
              that agreed to sponsor the conference. NIST-MEP and the contractor have both stated
              to us that it was these sponsorship fees—unrelated to the cost of conducting the
              conference itself—that were used to pay for the reception events and other
              miscellaneous expenses, such as theatrical reception lighting and free bus transportation
              to Disney World.

              During our audit, NIST-MEP orally stated that it authorized the sale of sponsorships by
              IMC; however, the contract between NIST-MEP and IMC did not define any
              requirements of a sponsor and made no mention of sponsorship fees. Of the amount
              collected, $25,000 came from the Department of Homeland Security, $10,000 from
              other non-MEP divisions of NIST, and $3,000 from the Environmental Protection
              Agency. None of the sponsorship fees collected was used to reduce the cost of the
              conference to the federal government, despite the transfer of the government’s
              attendee list to sponsors and space for sponsor logos on the government’s conference
              materials in return for the sponsorship fees.

              The Department of Commerce has a policy prohibiting the use of outside organization
              logos in exchange for money, although it does not address sponsorship use specifically.2
              IMC developed a tiered system of sponsorship, with different benefit levels at various
              prices. IMC collected and then spent the sponsorship fees on the reception and other
              miscellaneous events at the conference. NIST-MEP managers verbally informed us that
              they did not object to IMC collecting and spending sponsorship fees on the reception
              and other miscellaneous related items without official government involvement or
              participation.

              For a conference involving mainly nongovernmental attendees, it was NIST-MEP’s intent
              to provide a networking reception similar to what the nongovernmental attendees
              would expect at a nongovernmental conference. Similar sponsorship arrangements were
              also used to fund a 2011 trip to a local restaurant at a cost of $48,811. Because these
              funds represent the sale of a government asset by the government’s contractor, IMC,
              the $148,000 should have been returned to NIST-MEP as the “owner” of the sold assets
              to reduce the cost of the conference to the government or to the Department of the
              Treasury.




                                                            
2
 U.S. Department of Commerce. Logos and Endorsement [Online]. www.commerce.gov/os/ogc/logos-and-
endorsement (accessed November 18, 2013).


FINAL REPORT NO. OIG-14-013-A                                                                            6
  DEPARTMENT OF COMMERCE
U.S.                                                                                   OFFICE OF INSPECTOR GENERAL


    V.        IMC Retained Funds from the 2012 Conference that Properly Belong to the
              NIST-MEP Program

       A. Commissions and Concessions Paid by Marriott to IMC

              IMC also received and retained $54,450 of commissions and concessions from Marriott
              for the 2012 conference. All concessions are the property of NIST-MEP in accordance
              with FTR Section 301-74.1(d). IMC was fully compensated for its services under a firm-
              fixed-price contract by NIST-MEP. Therefore, $54,450 of the refund for concessions
              provided by Marriott belongs to NIST-MEP.

       B. Excess Registration Fees Collected by IMC

              As noted earlier, IMC was paid $579,545 to organize the 2012 conference. As part of its
              contract, IMC collected registration fees to cover meeting space, audio–visual support,
              signage, and other site-related costs. However, IMC collected registration fees
              ($497,509) that exceeded documented expenses ($463,618)3 in the amount of $33,891.
              IMC was fully compensated for its services to organize the conference under a firm-
              fixed-price contract by NIST-MEP. Therefore, IMC should not receive any additional
              compensation and the excess fees collected should be returned to NIST-MEP.

              Table 2 represents a summary of amounts collected, spent and that should be returned
              by IMC related to the 2012 conference.

                      Table 2. NIST–MEP 2012 Revenue and Refunds Retained by IMC
                                                                                      Amount IMC
                                                               Amounts     Amount
                                                                                      Should Have
                              Category                         Collected    Spent
                                                                                        Returned
                                                                by IMC     by IMC
                                                                                      to NIST-MEP
                              Sponsorship Fee                  $148,000    $148,000     $148,000
                              Commissions and
                              Concessions from                   54,450           0       54,450
                              Marriott
                              Excess Registration
                                                                 33,891           0       33,891
                              Fees
                                                      Total    $236,341    $148,000     $236,341

                           Source: OIG

 



                                                            
3
 IMC determined expenses to be $485,848. However, we reduced expenses by $22,230 for undocumented
administrative charges that IMC imposed on attendees.


FINAL REPORT NO. OIG-14-013-A                                                                                   7
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL


VI.       NIST-MEP Subsidized Lodging Expenses for Private Sector Attendees

   NIST-MEP attendees at the 2011 and 2012 conferences were reimbursed for lodging costs
   that exceeded allowable amounts for attendance at those conferences. FTR Section 301-
   74.10 states that “[t]he conference lodging allowance may not exceed 25 percent above the
   applicable locality lodging per diem rate,” or $139 per night for 2012. IMC agreed to a
   modification of the 2011–2012 room rates with
   Marriott that resulted in 40 percent higher          NIST-MEP management decided
   room rates than the prevailing government per        to subsidize private attendee
   diem rates. IMC also received a commission           room rates, using government
   from Marriott in connection with an additional       funds to increase conference
   2012 hotel room rate modification. Marriott
                                                        attendance.
   was paid by IMC a bulk amount for all of the
   rooms used for the conference. The amount to be charged for each room was irrelevant to
   Marriott so long as IMC paid the bulk amount. Therefore, according to IMC, the rate to be
   charged for each room was a decision that IMC gave to NIST-MEP management to make.

   NIST-MEP management decided that if the rooms for government attendees were charged at
   the government per diem rate, then the room rates for private sector attendees would have
   to be higher to meet the Marriott bulk amount for the block of rooms. Therefore—to make
   the rooms more affordable for private-sector attendees—NIST-MEP managers decided that
   government attendees should pay a significantly higher room rate, effectively a subsidy for
   the private-sector attendees. The government attendees paid the same $195 per night rate
   as the private sector attendees. We calculated the government attendees subsidy for private
   sector attendance at the 2012 Orlando conference to be $20,758.

VII.      NIST-MEP Did Not Sufficiently Process Travel Claims to Guard Against
          Waste

       A. NIST Reimbursed Travel Costs That Were Not Incurred During the 2011 and 2012
          Annual and Update Conferences

          In approving travel claims, NIST provided reimbursement for costs that were not
          incurred during NIST-MEP 2011 and 2012 conferences. Specifically, travelers were
          reimbursed for:
                Lodging and lodging taxes that they did not incur at the conferences
                Lodging, meals and incidental expense (M&IE) per diem for personal days (usually
                 at the end of conference)
                M&IE per diem for meals (i.e., breakfast and lunch) that the conferences provided
                Parking expenses that they did not incur at the conferences
          In several instances related to the 2011 and 2012 conferences, travelers signed and
          certified travel vouchers that contained obvious errors. Reviewing officials either did not
          thoroughly review supporting documentation to ensure that all costs were accurate or


FINAL REPORT NO. OIG-14-013-A                                                                       8
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

        conducted insufficient reviews of some travel vouchers for validity before authorizing
        reimbursement resulting in overpayment or underpayment to the traveler.

        For example, a partial list of our findings shows that NIST-MEP claimed, approved, and
        certified unallowed travel costs including:

                Multiple instances where the expenses incurred by the traveler were not accurately
                 recorded on the travel voucher. For example, there were $237 in lodging and M&IE
                 costs claimed for a time period when a traveler was on personal leave. In
                 another example, travel expenses were claimed for days that an employee was
                 not traveling. In a third example, in which a claimant was underreimbursed,
                 travel expenses were not recorded on the voucher for all of the days that the
                 claimant was traveling. In each instance, third-party preparers of each related
                 voucher did not factor in either related personal leave or days that an employee
                 was traveling, because the travel order used to prepare the voucher did not
                 accurately reflect the travel that occurred. However, in all of these instances, the
                 traveler, by signature, certified the claim as true and accepted the associated
                 reimbursement.

                A NIST-MEP invitational speaker claimed $418 in excess costs for roundtrip travel from
                 North Carolina to Orlando. The invitational speaker chose to travel by rental car
                 because several additional individuals with no official ties to the MEP program or
                 the annual conference accompanied the invitational speaker to the Orlando
                 resort. The invitational speaker received reimbursement for the rental car as
                 well as the mileage rate suitable to a privately owned vehicle (POV). Although
                 travel by rental car is an allowable option available to the invitational speaker
                 under FTR Sections 301-10.3, 10.4, the cost of the travel must be limited to the
                 lesser of the rental vehicle or commercial airfare. In this case, the airfare was
                 significantly less than the cost of the rental car. Therefore, the invitational
                 speaker’s government reimbursement amount should have been limited to the
                 cost of the airfare.

        According to the Department of Commerce Travel Handbook, Section C301-52.101, a
        proper voucher is one that is substantially complete in every material respect, including
        documentation and receipts, and has been signed and dated by the traveler. The trip
        must also have been authorized and taken, with accurate and appropriate receipts,
        ticket stubs, and other forms of required documentation retained. Further, the traveler
        must sign and date the travel voucher, certifying to its correctness. The voucher must
        then be approved by the appropriate reviewing official. FTR Section 301-71.201 requires
        the reviewing official to have full knowledge of the employee’s activities.

        Improper claims by travelers and a lack of effective management controls over reviews
        of travel claims resulted in mischarging of public funds or underpayment of some
        travelers.




FINAL REPORT NO. OIG-14-013-A                                                                         9
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

    B. NIST Attendees Charged Unallowable Travel Costs to Government-Issued Travel Cards

        NIST attendees charged unallowable travel expenses to government-issued travel cards.
        We noted instances where travel cards were used for purposes other than government
        business (e.g., gift and spa shop purchases,
        lodging for personal days), with amounts ranging        Government travel cards, when
        from $26 to $595. The $26 amount was                    properly used, benefit both
        improperly reimbursed. The 2009 NIST Internal
        Policies and Procedures, Section 8.12.04, Part          government and traveler.
        G.1.c.1 & G.1.c.2, requires the government-
        issued travel card to only be used for official travel expenses. This also includes ATM
        advances withdrawn for official travel expenses where a credit card is not accepted (e.g.,
        for taxi or local transportation systems). FTR Section 301-51.7 states that a traveler
        “may not use the Government contractor-issued travel charge card for personal
        reasons while on official travel.” Also, FTR Section 301-70.700, states “employees must
        use a Government contractor-issued travel charge card for official travel expenses.”

        NIST is aware that they have used their travel cards for personal and unallowable
        expenses. Personal expenses are not reimbursable and it is the traveler’s responsibility
        to pay the travel card bill. However, NIST in effect allowed this improper use of travel
        cards by not monitoring their use. Given the improper traveler claims and
        management’s previously noted review of travel claims, there is a high risk of travelers
        submitting unallowable costs on travel vouchers and receiving reimbursement. Finally,
        travel card misuse can create an environment for fraudulent claims. This environment
        poses an avoidable threat to the public trust in government and the MEP program.

    C. Hotel Tax Exemptions Were Not Used

        Some NIST-MEP attendees incorrectly paid hotel taxes for their stay at the 2011 and
        2012 conferences. The state of Florida does not require federal employees on official
        travel to pay hotel lodging taxes. The appropriate forms to document official travel for
        the Florida tax exemption are at the GSA Travel Card website (smartpay.gsa.gov);
        however, NIST-MEP management did not require its employees to use the GSA-
        provided tax exemption forms. Some NIST-MEP attendees were able to convince the
        hotel to remove some or all of the tax charge. However, some of these same attendees
        also claimed the removed taxes for reimbursement on their travel vouchers that NIST-
        MEP then approved for payment. Because the Florida lodging tax exemption was not
        enforced by NIST-MEP management, an additional $2,797 was spent.

 




FINAL REPORT NO. OIG-14-013-A                                                                      10
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL


Recommendations

    We have concluded that NIST-MEP must strengthen its controls over conference spending
    and travel. To accomplish this, we recommend that the Director, NIST-MEP, implement
    controls to ensure that:

        1. Contractors comply with Federal Travel Regulation (FTR) cost restrictions when choosing a
           conference location; NIST-MEP monitors contractor performance thoroughly; and NIST-MEP
           documents contractor compliance with the contract terms and conditions and applicable
           government regulations, including the FTR.

        2. Funds collected from the sales of sponsorships are not used to pay for alcohol and live
           entertainment but rather to reduce the costs of the conference to the government.

        3. NIST-MEP does not accept upgraded suites or any other valuable items related to
           government travel from government contractors.

    We further recommend that the Director, NIST-MEP:

        4. Make a determination on the recovery of $148,000 that IMC collected for sponsorship fees
           and $88,341 that IMC retained for both registration fees and a concession refund.

        5. Evaluate and determine whether administrative disciplinary action is appropriate if NIST
           management made decisions to subsidize private attendee room rates by increasing
           government attendees room rates in violation of the FTR maximum allowable rates.

        6. Evaluate and determine whether administrative disciplinary action is appropriate for
           attendees who claimed and reviewing officials who approved expenses that were not
           incurred for the 2011 or 2012 conferences or who misused government travel card
           privileges. The bureau should pursue reimbursement of overpayments and correctly
           reimburse underpaid attendees, wherever possible.




FINAL REPORT NO. OIG-14-013-A                                                                         11
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
OIG received NIST-MEP’s comments on the draft report, which we include as appendix C of
this final report. Overall, NIST-MEP concurs with the findings and recommendations in the
report. NIST-MEP will develop corrective action plans and ensure timely implementation to
address the recommendations.

NIST-MEP states that the issue we identified related to travel reimbursement is resolved. NIST-
MEP also notes that it recognizes the importance and the requirements of government
conference planning and will continue to improve internal controls to ensure compliance for
future MEP conferences.

On February 21, 2014, our office received additional comments from the Department related
to (a) sponsorships by outside parties and (b) the characterization of federal dollars in our
report. Regarding sponsorships, the Department further stresses its understanding that such
activities must be consistent with applicable law and Departmental policy. Regarding federal
dollars, the Department and OIG agree with the NIST-MEP calculation of the NIST-MEP-only
portion of the FY 2012 conference costs.

We look forward to receiving NIST-MEP’s corrective action plan.

                                 




FINAL REPORT NO. OIG-14-013-A                                                                   12
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objectives of this audit were to:
       Develop a reasonable cost estimate of the 2012 National Institute of Standards and
        Technology (NIST) Manufacturing Extension Partnership (MEP) annual conference held
        in Orlando
       Determine the legitimacy and reasonableness of travel costs for major conferences in
        fiscal years (FYs) 2011 and 2012
The scope of this audit is NIST-MEP conference spending in fiscal years 2011 and 2012, with
particular emphasis on the May 2012 annual conference in Orlando.

For this audit, we:

       Reviewed Office of Management and Budget guidance, as well as the Department's
        policies and procedures for conference spending

       Evaluated the amount of conference spending at the annual conferences by NIST-MEP,
        other federal attendees, MEP Center, and private sector attendees

       Examined the documentation supporting travel costs of NIST attendees who attended
        conferences

       Interviewed NIST attendees and officials regarding travel and other conference costs

We reviewed internal controls significant within the context of the audit objective by
interviewing NIST-MEP officials, examining policies and procedures, reviewing written
assertions of NIST-MEP officials, and reviewing transaction documentation for evidence of
internal controls.

We also reviewed the rules and regulations regarding conference spending and NIST-MEP
travel costs by assessing Departmental conference policies and procedures, Office of
Management and Budget memorandums regarding conference spending, Federal Travel
Regulations, the Department’s Travel Handbook, and NIST internal policies and procedures for
travel. Instances of noncompliance with the portion of these rules and regulations pertinent to
our audit objectives are described in the audit report.

During the course of this audit, the auditors did not receive, and therefore did not rely on,
information and data from NIST-MEP in electronic format or that had been entered into a
computer system, or that resulted from computer processing. Instead, we directly tested NIST-
MEP travel source documents. Therefore, we did not test the reliability of NIST-MEP’s
computer-processed data or directly test NIST’s IT systems.




FINAL REPORT NO. OIG-14-013-A                                                                     13
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL

We tested the reliability of the cost data from the conference planner by reconciling cost
amounts received from the conference planner with cost amounts received from MEP Centers.
No discrepancies were noted; thus, we consider the data sufficiently reliable for use in our
audit.

We conducted this audit from September 2012 through December 2013, under the authorities
of the Inspector General Act of 1978, as amended, and Departmental Organization Order 10-
13, dated April 26, 2013 as amended. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

 




FINAL REPORT NO. OIG-14-013-A                                                               14
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


Appendix B: Potential Monetary Benefits
                                                               Questioned
                                                                 Costsa

                       Sponsorship fees                         $148,000

                       Refunds and concessions from Marriott      54,450

                       Excess registration fees                   33,891

                                                     Total     $236,341
                   a
                       Per recommendation 4.




FINAL REPORT NO. OIG-14-013-A                                                             15
  DEPARTMENT OF COMMERCE
U.S.                                OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response




                                                          
                                 




FINAL REPORT NO. OIG-14-013-A                                16
  DEPARTMENT OF COMMERCE
U.S.                                           OFFICE OF INSPECTOR GENERAL




                                                                       




                                011200000154




FINAL REPORT NO. OIG-14-013-A                                             17
